UOOMH MppfcJdL £U-00*f£

UUU. I !- I

riltJU. \J&£./U£KJ£ i

ry. i 01 £.

fcr

luun rayes.* \
'' "

' '!>f / 'V

FILED: February 22, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6842,

Daniel Tekle v. Harold Clarke
3:18-CV-00694-REP-RC Y

NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please
be advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: The time to file a petition for writ
of certiorari runs from the date of entry of the judgment sought to be reviewed, and
not from the date of issuance of the mandate. If a petition for rehearing is timely
filed in the court of appeals, the time to file the petition for writ of certiorari for all
parties runs from the date of the denial of the petition for rehearing or, if the
petition for rehearing is granted, the subsequent entry ofjudgment. See Rule 13 of
the Rules of the Supreme Court of the United States; www.supremecourt.gov.
VOUCHERS FOR PAYMENT OF APPOINTED OR ASSIGNED
COUNSEL: Vouchers must be submitted within 60 days of entry of judgment or
denial of rehearing, whichever is later. If counsel files a petition for certiorari, the
60-day period runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is
being made from CJA funds, counsel should submit the CJA 20 or CJA 30
Voucher through the CJA eVoucher system. In cases not covered by the Criminal
Justice Act, counsel should submit the Assigned Counsel Voucher to the clerk's
office for payment from the Attorney Admission Fund. An Assigned Counsel
Voucher will be sent to counsel shortly after entry ofjudgment. Forms and
instructions are also available on the court's web site, www.ca4.uscourts.gov. or
from the clerk's office.
BILL OF COSTS: A party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entiy ofjudgment.
(FRAP 39, Loc. R. 39(b)).

At

uj

o;

V '70

, . .r r- — —

1 Vlbtl

.

PETITION FOR REHEARING AND PETITION FOR REHEARING EN
BANC: A petition for rehearing must be filed within 14 calendar days after entry
ofjudgment, except that in civil cases in which the United States or its officer or
agency is a party, the petition must be filed within 45 days after entry of judgment.
A petition for rehearing en banc must be filed within the same time limits and in
the same document as the petition for rehearing and must be clearly identified in
the title. The only grounds for an extension of time to file a petition for rehearing
are the death or serious illness of counsel or a family member (or of a party or
family member in pro se cases) or an extraordinary circumstance wholly beyond
the control of counsel or a party proceeding without counsel.
Each case number to which the petition applies must be listed on the petition and
included in the docket entry to identify the cases to which the petition applies. A
timely filed petition for rehearing or petition for rehearing en banc stays the
mandate and tolls the running of time for filing a petition for writ of certiorari. In
consolidated criminal appeals, the filing of a petition for rehearing does not stay
the mandate as to co-defendants not joining in the petition for rehearing. In
consolidated civil appeals arising from the same civil action, the court's mandate
will issue at the same time in all appeals.
A petition for rehearing must contain an introduction stating that, in counsel's
judgment, one or more of the following situations exist: (1) a material factual or
legal matter was overlooked; (2) a change in the law occurred after submission of
the case and was overlooked; (3) the opinion conflicts with a decision of the U.S.
Supreme Court, this court, or another court of appeals, and the conflict was not
addressed; or (4) the case involves one or more questions of exceptional
importance. A petition for rehearing, with or without a petition for rehearing en
banc, may not exceed 3900 words if prepared by computer and may not exceed 15
pages if handwritten or prepared on a typewriter. Copies are not required unless
requested by the court. (FRAP 35 & 40, Loc. R. 40(c)).
MANDATE: In original proceedings before this court, there is no mandate. Unless
the court shortens or extends the time, in all other cases, the mandate issues 7 days
after the expiration of the time for filing a petition for rehearing. A timely petition
for rehearing, petition for rehearing en banc, or motion to stay the mandate will
stay issuance of the mandate. If the petition or motion is denied, the mandate will
issue 7 days later. A motion to stay the mandate will ordinarily be denied, unless
the motion presents a substantial question or otherwise sets forth good or probable
cause for a stay. (FRAP 41, Loc. R. 41).

\ 'I

v •

uoum Mpperai. .•cu-oo4*^

SJUU. I \~jL

nieu. vn£.£.}£.\)£. i

ry. i oi f

iuuu

rayes.^o uj o}

FILED: February 22, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6842
(3:18-cv-00694-REP-RCY)
DANIEL TEKLE
Petitioner - Appellant
v.
HAROLD W. CLARKE, Director Virginia Department of Corrections
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

As

uow-w Mppeai, axhqoh<l

UUU. IU

riieu.

i

ry. i ui ^

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6842

DANIEL TEKLE,
Petitioner - Appellant,
v.
HAROLD W. CLARKE, Director Virginia Department of Corrections,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. Robert E. Payne, Senior District Judge. (3:18-cv-00694-REP^RC Y)

Decided: February 22, 2021

Submitted: February 18,2021

Before NIEMEYER, KING, and FLOYD, Circuit Judges.

Dismissed by unpublished per curiam opinion.

Daniel Tekle, Appellant Pro Se, Katherine Quinlan Adelfio, OFFICE OF THE
ATTORNEY GENERAL OF VIRGINIA, Richmond, Virginia, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

H

uoun*t n[/pcai. 6irv/u*rt

uuo.

(V

t UC7U. U4Ji4r£U£- I

ry.cuii.

PER CURIAM:
Daniel Tekle seeks to appeal the district court’s order denying relief on his 28 U.S.C
§ 2254 petition. The order is not appealable unless a circuit justice or judge issues a
certificate of appealability. See 28 U.S.C. § 2253(c¥lVAV A certificate of appealability
will not issue absent “a substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c¥2). When the district court denies relief on the merits, a prisoner
satisfies this standard by demonstrating that reasonable jurists could find the district court’s
assessment of the constitutional claims debatable or wrong. See Buck v. Davis, 137 S. Ct.
759. 773-74 (2017). When the district court denies relief on procedural grounds, the
prisoner must demonstrate both that the dispositive procedural ruling is debatable and that
the petition states a debatable claim of the denial of a constitutional right. Gonzalez v.
Thaler, S65U.S. 134. 140-41 (2012) (citing Slack v. McDaniel, 529 U.S.473. 4M (2000)).
We have independently reviewed the record and conclude that Tekle has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

Case 3:18-cv-00694-REP-RCY Document 24 Filed 05/01/20 Page 1 of 1 Page! D# 280

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
DANIEL TEKLE,
Petitioner,
Civil Action No. 3:18CV694

v.
HAROLD W. CLARK,
Respondent.
ORDER

In accordance with the accompanying Memorandum Opinion, it
is hereby ORDERED that:
Respondent's Motion to Dismiss {ECF No. 19) is
granted;
2.
Tekle's claims are dismissed;
3.
Tekle's § 2254 Petition is denied;
The action is dismissed; and,
4.
5.
A certificate of appealability is denied.
Should Tekle wish to appeal, a written notice of appeal must
1.

be filed with the Clerk of the Court within thirty (30) days of
the date of entry hereof.

Failure to file a written notice of

appeal may result in the loss of the ability to appeal.
The Clerk of the Court is directed to send a copy of this
Order to Tekle and counsel of record.
It is SO ORDERED.
/a/
Robert E. Payne
Senior Uhited States District Judge
Richmond, Virginia
Date:

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 1 of 28 PagelD# 252

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
DANIEL TEKLE,
Petitioner,
v.

Civil Action No. 3:18CV694

HAROLD W. CLARK,
Respondent.
MEMORANDUM OPINION
Daniel Tekle, a Virginia prisoner proceeding pro se, brings
this petition for a writ of habeas corpus under 28 U.S.C. § 2254
("§ 2254 Petition," ECF No. 14).

Respondent filed a SECOND RULE

5 ANSWER AND MOTION TO DISMISS ("Second Motion to Dismiss," ECF
No.

19)1 and provided appropriate Roseboro2 notice.

responded.

(ECF No. 22.)

Tekle has

The matter is ripe for disposition.

I. PROCEDURAL HISTORY
A grand jury sitting in the Circuit Court for Loudoun County,
Virginia ("Circuit Court") returned an indictment charging Tekle
with one count of electronic solicitation of a minor less than
fifteen years of age being at least seven years older, in violation

1 The Court denied without prejudice the first Motion to
Dismiss because Respondent failed to receive the entire § 2254
Petition due to a clerical error. (ECF No. 15.)
2 Roseboro v. Garrison, 528 F.2d 309 (4th Cir. 1975).

<0Z

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 2 of 28 PagelD# 253

of section 18.2-374.3 of the Virginia Code.3

Indictment at 1,

Commonwealth v, Tekle, No. CR00030272-00 (Va. Cir. Ct. Feb. 13,
2017).

On March 27, 2017, Tekle pled guilty to that count pursuant

to a written Plea Agreement.

Plea Agreement at 1-7,

No. CR00030272-00

entered Mar.

Circuit

Court

(Va.

Cir.

Ct.

sentenced Tekle

to a total

of

27,

Tekle,

2017).

The

eight years

of

3 That statute provides, in relevant part:
C.
It is unlawful for any person 18 years of age
or older to use a communication system . . . for the
purposes of soliciting, with lascivious intent, any
person he knows or has reason to believe is a child
younger than 15 years of age to knowingly and
intentionally:
2.
Propose that any such child feel or fondle his
own sexual or genital parts or the sexual or genital
parts of such person or propose that such person feel or
fondle the sexual or genital parts of any such child;
3.
Propose to such child the performance of
sexual intercourse, anal intercourse,
cunnilingus,
fellatio, or anilingus or any act constituting an
offense under § 18.2-361 . .
Any person who violates this subsection is guilty
of a Class 5 felony. However, if the person is at least
seven years older than the child he knows or has reason
to believe is less than 15 years of age, the person shall
be punished by a term of not less than five years nor
more than 30 years in a state correctional facility,
five years of which shall be mandatory minimum term of
imprisonment.
Any person who commits a second or
subsequent violation . . . shall be punished by a term
of imprisonment of not less than 10 years not more than
40 years, 10 years of which shall be a mandatory term of
imprisonment.
Va. Code Ann. § 18.2-374.3(0 (West 2020).
2

As

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 3 of 28 PagelD# 254

incarceration, with all but five years suspended, resulting in
Tekle

receiving

the

mandatory

minimum

Tekle,

sentence.

No. CR00030272-00, at 2 (Va. Cir. Ct. July 5, 2017).

Tekle filed

no appeal.
On February 26, 2018, Tekle filed a petition for a writ of
habeas corpus in the Supreme Court of Virginia raising the majority
of the claims he raises in the instant § 2254 Petition.
Petition

for Writ

of

Habeas

Corpus

No. 180265^Va. filed Aug. 8, 2018.)
dismissed the petition.

at

1,

Tekle

v.

See

Clarke,

The Supreme Court of Virginia

Tekle v. Clarke, No. 180265, at 4 (Va.

filed Aug. 8, 2018.)
XI.

GROUNDS FOR RELIEF

As Respondent aptly notes, Tekle's § 2254 Petition is hardly
a model of clarity.

Tekle only listed one ground in his § 2254

Petition, and states:

"See attached."

attachment,

"Motion

entitled,

Unconstitutional

Detention

Counseling,"

a

is

to

and

rambling,

Habeas

Corpus

Ineffective

repetitive

specifically numbered claims for relief.
ECF No..14-2, at 1-61.)

{§ 2254 Pet. 5. )4
To

Dismiss

Assistance

brief

The

lacking

of
any

(ECF No. 14-1, at 1-8;

Respondent generously construed Tekle to

4 The Court employs the pagination assigned to the parties'
submissions by the CM/ECF docketing system,
The Court corrects
the spelling, spacing, capitalization, and punctuation in the
quotations from Tekle's submissions.
3

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 4 of 28 PagelD# 255

The Court utilizes Respondent's

raise twelve claims for relief.

statement of the claims for the sake of orderly disposition of the
action:
(l)

Tekle's constitutional rights were violated when
the investigating detective pretended to be a
fourteen-year-old
during
the
detective's
interactions with Tekle.
(Passim).

(2)

The Supreme Court erred when it denied his petition
for a writ of habeas corpus, "because fit] failed
or refused to follow its own well held precedent
and law violating petitioner's constitutional right
to effective counsel and a fair and just trial-due
process of law." (ECF No. 14 at 5).

(3)

Trial counsel was ineffective for failing to
that
"the
charges"
against
Tekle
unconstitutional because they violated the
Protection Clause of the Constitution and
Constitutional protections.
(ECF No. 14-1
2) .

(4)

Trial counsel was ineffective for advising Tekle to
plead guilty despite the violation of his
constitutional rights. (ECF No. 14-1 at 1-2, 5, 68) .

(5)

Trial counsel was ineffective for failing to
correct the proffer of facts offered by the
prosecutor.
(ECF No. 14-1 at 2, 5).

(6)

Trial counsel provided Tekle with confusing advice
regarding the sentencing range and the sentencing
guidelines.
(ECF No. 14-1 at 3).

(7)

Trial counsel advised Tekle to waive a preliminary
hearing because if he did not, the Commonwealth
would bring additional charges.
(ECF No. 14-1 at
3) .

(8)

Trial counsel provided Tekle with
information regarding the plea offer.
1, at 3-4) .

4

argue
were
Equal
other
at 1-

insufficient
(ECF No. 14-

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 5 of 28 PagelD# 256

(9)

Trial counsel "threatened" that the Commonwealth
would bring additional charges if Tekle did not
plead guilty.
(ECF No 14-1 at 3-4).

(10) Trial counsel was ineffective for failing to
consult with Tekle prior to continuing Tekle's
trial date.
(ECF No. 14-1 at 4).

(ID Trial counsel informed Tekle he would receive a
sentence of [30-45] years if Tekle did not plead
guilty.
(ECF No. 14-1 at 4).
(12) Trial counsel failed to remove from the plea
agreement a statement regarding Tekle's immigration
status.
(ECF No. 14-1 at 5).
(Br. Supp. Sec. Mot. Dismiss 3-4, ECF No. 21 (first alteration in
original).)

As

discussed

below,

Tekle's

Claim

(2)

is

not

cognizable in federal habeas proceedings because it raises only an
error of the state habeas court, and his remaining claims lack
merit.5
III. CLAIM NOT COGNIZABLE IN FEDERAL HABEAS
In Claim (2) , Tekle contends that the Supreme Court erred
when it denied his petition for a writ of habeas corpus, "because
[it] failed or refused to follow its own well held precedent and
law violating

petitioner's

constitutional

right

to

effective

counsel and a fair and just trial- due process of law."

(ECF

5 Respondent argues that Claim (3) and (6) are procedurally
defaulted and barred from review here because Tekle failed to
fairly present these claims to the Supreme Court of Virginia. (Br.
Supp. Mot. Dismiss 14-15.) While this is true, Tekle's claims are
so vague, conclusory, and ultimately lacking in merit, that in the
interests of judicial economy and efficiency, the Court simply
addresses each on its merits.
5

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 6 of 28 PagelD# 257

No. 14, at 5.)

As explained below, this claim is not cognizable

in federal habeas review.
To obtain federal habeas relief, at a minimum, a petitioner
must demonstrate that he is

"in custody in violation of the

Constitution or laws and treaties of the United States."
§ 2254(a).
r£

Thus,

28 U.S.C.

"claims of error occurring in a state post-

conviction proceeding cannot serve as a basis for federal habeas
corpus relief,"
1988)

Bryant v. Maryland, 848 F.2d 492, 493 (4th Cir.

(citations

omitted) ,

because

the

habeas

petitioner's

detention results from the underlying state conviction, not from
the state post-conviction collateral proceeding.

Lawrence v.

Branker, 517 F.3d 700, 717 (4th Cir. 2008) ("[E]ven where there is

some error in state post-conviction proceedings, a petitioner is
not entitled to federal habeas relief because the assignment of
error relating to those post-conviction proceedings represents an
attack on a proceeding collateral to detention and not to the

detention itself."

(citing Bryant, 848 F.2d at 493; Bel-Bey v.

Roper, 499 F.3d 752, 756 (8th Cir. 2007); United States v. Dago,
441 F.3d 1238, 1248 (10th Cir. 2006))).

Claim (2) raises alleged

errors by the Supreme Court of Virginia in Tekle's post-conviction
proceedings, and, such a claim is not cognizable in federal habeas
review.

Accordingly, Claim (2) will be dismissed.

6

£7

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01720 Page 7 of 28 PagelD# 258

IV.

APPLICABLE CONSTRAINTS UPON FEDERAL HABEAS REVIEW

In order to obtain federal habeas relief, at a minimum, a
petitioner must demonstrate that he is "in custody in violation of
the Constitution or laws or treaties of the United States."
U.S.C. § 2254(a).

28

The Antiterrorism and Effective Death Penalty

Act ("AEDPA") of 1996 further circumscribed this Court's authority
to grant relief by way of a writ of habeas corpus.

Specifically,

"[s]tate court factual determinations are presumed to be correct
and may be rebutted only by clear and convincing evidence."
v. Branker, 529 F.3d 220, 228 {4th Cir. 2008)
2254(e)(1)).

Gray

(citing 28 U.S.C. §

Additionally, under 28 U.S.C. § 2254(d), a federal

court may not grant a writ of habeas corpus based on any claim
that was adjudicated on the merits in state court unless the
adjudicated claim:
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of,
clearly
established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
28 U.S.C. § 2254(d) (l)-(2) .

The Supreme Court has emphasized that

the question "is not whether a federal court believes the state
court's determination was incorrect but whether that determination
was unreasonable-a substantially higher threshold."

7

Schriro v.

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 8 of 28 PagelD# 259

Landrigan,

550 U.S.

465, 473

(2007)

(citing Williams v. Taylor,

529 U.S. 362, 410 (2000)).6

V. GUILTY PLEA PROCEEDINGS AND FACTUAL BASIS FOR PLEA
Because Tekle's claims of ineffective assistance of counsel
stem

from deficiencies

proceedings,
proceedings.

it

occurring before

is necessary to recite
As

reflected

below,

and during the plea
the

facts

contrary

to

from those
his

current

protestations, the evidence of Tekle's guilt was compelling, and
Tekle entered his plea knowingly and voluntarily.
A.

Guilty Plea
Tekle agreed to plead guilty to one count of electronic

solicitation of a minor less than fifteen years old, being at least
seven years older, pursuant to Va. Code Ann. § 18.2-373.3(0 .

Plea

of Guilty to a Felony, Tekle, CR00030272-00 (Va. Cir. Ct. Mar. 27,
2017)

("Plea Agreement").

In his Plea Agreement,

Tekle agreed

that he understood that the mandatory minimum sentence was 5 years
of incarceration, but that he could receive a sentence of up to 30
years.

Plea Agreement 2.

In "anticipation of and in exchange for

this] plea of guilty," Tekle agreed that he "underst [ood] that the
Commonwealth agree Ed] not to prosecute [him]

further in Loudoun

County regarding the known events described in the -Leesburg Police

6 In light of the foregoing statutory structure, the findings
of the Virginia courts figure prominently in this Court's opinion.
8

J$9

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 9 of 28 PagelD# 260

Department Report Number 2016-00036503."
accompanying

Proffer

of

Facts,

Tekle

Id.
agreed

at 3.
that

In the
"if

the

Commonwealth were to proceed with a trial in this matter, the
evidence

presented by

the

Commonwealth would consist

of the

following:"
On 28 October 2016, Detective Dan Troxell of the
Leesburg Police Department posted an advertisement on
Craigslist stating, "I'm inexperience and curious very
young white female, open to all races and ages looking
for someone to spoil me and 420 friendly but not
required".
On that same date, the Defendant, Daniel
Tekle, responded to the ad requesting "at least weekly
action, dinner and drink too?" Det. Troxell stated to
him, *I/m almost 15," and the Defendant continued
soliciting him, stating that "you need to be very
discreet about it" and telling her that " [a] s long as
you keep secret sure will meet with you and explore our
wildest side of meeting". He also sent a photograph of
his unclothed chest and stomach.
The Defendant continued to solicit sexual favors
from Det. Troxell, believing him to be a fourteen-yearold girl. He stated "you are so young and im your daddy
figure".
When asked "what do you have in mind?", the
Defendant responded, "we kiss, cuddle lick sweet pussy
and play love you moaning". He also warned her, "Yeah
for 1st time penetration will be a little pain and then
you will be okay." This continued for several days.
On 1 November [20167] , the Defendant arranged to
meet this young female at 75 Plaza Street, Building J in
the Town of Leesburg,
He arrived at .the appointed
meeting time, and was confronted at that time by Det.
Troxell. /He immediately stated, "Sorry sorry, this is
a setup, I'm sorry."
He was read his rights under
Miranda v. Arizona and agreed to speak.
He was also
searched and found in possession of three condoms. He
admitted to being the person who sent messages to Det.
Troxell, and though he stated that she had pushed him

7 The Proffer of Facts stated that Tekle was arrested on
November 1, 2017; however, this is clearly a typographical error,
as the Indictment states November 1, 2016.
9

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 10 of 28 PagelD# 261

into meeting, admitted that he had come there intending
"sexual stuff."
Commonwealth's Proffer of Facts at 1-2,
No. CR00030272-00

(Va.

Cir.

Ct.

Mar.

Commonwealth v. Tekle,
27,

2017)

("Proffer of

Facts").
During the guilty plea hearing, the Circuit Court asked Tekle
if he understood the charge against him, and Tekle agreed that he
did.

(Mar. 27, 2017 Tr. 8-9.)

Tekle agreed that he had discussed

the charge and the elements of the offense with his attorney and
that he understood what the Commonwealth would be required to prove
to find him guilty.

(Mar. 27, 2017 Tr. 9.)

Tekle also indicated

that he had discussed any defenses he may have had with his
attorney prior to entering into his guilty plea.
Tr. 9.)

(Mar. 27, 2017

Tekle agreed that he had enough time to speak with his

attorney, was satisfied with his attorney's services, discussed
whether he should plead guilty with his attorney, and agreed that,
after discussing the matter with his attorney,
decision to plead guilty.

made his own

(Mar. 27, 2017 Tr. 10.)

Tekle also

answered in the affirmative when asked whether he was "pleading
guilty to the charge, sir, because [he was] , in fact, guilty as
charged."

(Mar. 27, 2017 Tr. 10.)

The Circuit Court explained that by pleading guilty Tekle was
giving up the right to a jury trial, his right to confront and
cross-examine witnesses, and his right to present evidence at a

10

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 11 of 28 PagelD# 262

trial.

(Mar. 27, 2017 Tr. 11-12.)

his surrender of those rights.
agreed

that

neither

"the

Tekle agreed that he understood

(Mar. 27, 2017 Tr. 11-12.)

Commonwealths

attorney,"

Tekle

nor

his

"attorney [had] threatened or forced [him] in any way to enter a
plea of guilty today."

(Mar. 27, 2017 Tr. 12.)

Tekle answered

affirmatively when asked whether he was "pleading guilty freely
and voluntarily" and agreed that no one had "made any promises to
[him] or any promises other than what [was] contained in the Plea
of Guilty to Felony" agreement.

(Mar. 27, 2017 Tr. 13.)

With regard to potential sentences, the Court asked:
THE COURT:
Mr. Tekle, do you understand the
range of punishment for the offense to which you have
pled guilty?
THE DEFENDANT: Yes.
THE COURT:
All right.
Can you tell me, sir,
what the range of punishment is?
THE DEFENDANT: If I read correctly,
from 5 years to 30 years.

the range is

THE COURT:
All right, 5 years to 30 years, 5
years of which is a mandatory minimum,
Is that your
understanding, sir?
THE DEFENDANT: That is what it is, yes.
(Mar. 27, 2017 Tr. 13-14.)

Tekle agreed that counsel had discussed

the sentencing guidelines with him and that he understood that the
Court was not required to follow them and could sentence him up to
the maximum penalty allowed by law.

(Mar. 27, 2017 Tr. 14.)

Tekle

also answered affirmatively when the Court asked again if he
11

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 12 of 28 PagelD# 263

understood that the mandatory minimum sentence was five years.
(Mar. 27, 2017 Tr 15.)
Tekle indicated that he had read and understood the Plea of
Guilty to a Felony and the Commonwealth's Proffer of Facts and had
discussed both with his attorney before he signed each document.
(Mar.

27,

2017 Tr.

16-17.)

Tekle agreed that,

"all of the

statements in the Plea of Guilty to Felony, to the best of (his]
knowledge and belief," are "true and accurate."
Tr. 17.)

(Mar. 27, 2017

The Circuit Court once again emphasized that the parties

could argue for whatever sentence they believed appropriate, but
that the Circuit Court was not required to follow any sentencing
re commendation.

(Mar. 27, 2017 Tr. 17.)

Tekle agreed that he

understood that if the Circuit Court did not follow the sentencing
recommendation of any party that Tekle did "not have a right to
withdraw his plea of guilty(.]"

(Mar. 27, 2017 Tr. 18.)

Tekle agreed that he understood all of the questions asked of
him and had been truthful in his answers.

(Mar. 27, 2017 Tr. 19.)

The Circuit Court found that Tekle's "plea of guilty has been made
freely, intelligently, and voluntarily, and that [he] under [stood]
the nature of the charges against [him] and the consequence of
[his] plea."
accepted

(Mar.

Tekle's

27, 2017 Tr. 19.)

plea

and

found

him

The Circuit Court then
guilty

of

electronic

solicitation of a minor less than fifteen years of age, being at
least seven years older than the minor.
12

(Mar. 27, 2017 Tr. 19.)

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 13 of 28 PagelD# 264

B.

Claim (1) Is Barred By Validly Entered Plea

In Claim (1),

Tekle argues that his constitutional rights

were violated when the investigating detective pretended to be a
fourteen-year-old during the detective's interactions with Tekle.
From what the Court can discern, Tekle, in essence, challenges the
sufficiency of the evidence to convict him in Claim (1) . 8

In

rejecting this claim, the Supreme Court of Virginia found the claim
i

• •/
■

«

barred because a voluntary and intelligent guilty plea waives all

f

non-jurisdictional defenses antecedent to a guilty plea.
v. King, 210 Va. 194, 196-97, 169 S.E.2d 569, 571 {1969)."
v. Clarke, No. 180265, at 4 {Va. Aug. 8, 2018).
no

unreasonable

application

of

the

law

Peyton
Tekle

The Court discerns

or

an

unreasonable

determination of the facts in the Supreme Court of Virginia's
rejection of this claim.

See 28 U.S.C. § 2254(d)(l)-(2).

"A guilty plea constitutes a waiver of all nonjurisdictional
defects, including the right to contest the factual merits of the
charges.

t n

Cir. 2011)

United States v. Martinez, 424 F. App'x 208, 209 {4th
{quoting United States v. Willis,

992 F.2d 489, 490

(4th Cir. 1993)); accord Peyton, 169 S.E.2d at 571.

Here, the

Circuit Court thoroughly questioned Tekle to ensure that Tekle's
plea was freely, knowingly, and voluntarily made.

8

See supra Part

To the extent that Tekle believes that the detective's
conduct was unconstitutional entrapment, the Court discusses that
contention in its discussion of Claims (3) and (4), infra. Part
IV. c.
13

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 14 of 28 PagelD# 265

Accordingly, Tekle's claim challenging the sufficiency of

\ IV.A.
!

the evidence is waived by his validly entered plea.

See Price,

!

218 F. App'x at 275; Martinez, 424 F. App'x at 209.

Accordingly,

Claim (1) will be dismissed.
VI.
A.

INEFFECTIVE ASSISTANCE OF COUNSEL

Applicable Law

To demonstrate ineffective assistance of counsel, a convicted
defendant must show,

first,

that counsel's representation was

deficient and, second, that the deficient performance prejudiced
the defense.

Strickland v. Washington, 466 U.S. 668, 687 (1984).

To satisfy the deficient performance prong of Strickland,
convicted defendant must overcome the

tt V

the

strong presumption' that

counsel's strategy and tactics fall

'within the wide range of

/«

Burch v. Corcoran, 273 F.3d

reasonable professional assistance.
577, 588

(4th Cir. 2001)

(quoting Strickland, 466 U.S. at 689).

The prejudice component requires a convicted defendant to "show
that there is a reasonable probability that, but for counsel's
unprofessional errors,
been

different.

A

the result of the proceeding would have
reasonable probability

is

a probability

sufficient to undermine confidence in the outcome."
466 U.S. at 694.

Strickland,

In analyzing ineffective assistance of counsel

claims, it_is not necessary to determine whether counsel performed
deficiently
prejudice.

if

the

claim

is

readily

dismissed

Id. at 697.
14

B>£

for

lack

of

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 15 of 28 PagelD# 266

In the context of a guilty plea, the Supreme Court modified
the second prong of Strickland to require a showing that "there is
a

reasonable

probability

that,

but

for

counsel's

errors,

[petitioner] would not have pleaded guilty and would have insisted
on going to trial."

Hill v. Lockhart, 474 U.S. 52, 59 (1985).

Any assertion by Tekle that he would not have pled guilty if he
had received better assistance from counsel is not dispositive of
the issue.

See United States v. Mora-Gomez, 875 F. Supp. 1208,

1214 (E.D. Va. 1995) .
[highly]

Rather, "[t]his is an objective inquiry and

dependent on the likely outcome of a trial had the

defendant not pleaded guilty."
369 (4th Cir. 2007)
U.S. at 59-60).

Meyer v. Branker, 506 F.3d 358,

(internal citation omitted)

The Court looks to all the facts and circumstances

surrounding a petitioner's plea,
conviction
guilty.
the

and

(citing Hill, 474

any

potential

See id. at 369-70.

representations

of

the

including

sentencing

the

benefit

likelihood of
to pleading

In conducting the foregoing inquiry,
defendant,

his

lawyer,

and

the

prosecutor during the plea proceedings, "as well as any findings
made by the judge accepting the plea,

constitute a formidable

barrier in any subsequent collateral proceedings."
Allison, 431 U.S. 63, 73-74

(1977).

Thus,

Blackledge v.

w[a]bsent clear and

convincing evidence to the contrary, a defendant is bound by the
representations he makes under oath during a plea colloquy."

15

S /(?

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 16 of 28 PagelD# 267

Fields v. Att'y Gen, of Md., 956 F.2d 1290, 1299 (4th Cir. 1992)
(citations omitted).
B.

Supreme Court Of Virginia's Rejection Of Tekle's Claims

Tekle did not raise Claims (3) and (6) in the Supreme Court
of Virginia.

With respect to Claims (4), (5), (7), (8), and (10),

the Supreme Court of Virginia rejected these claims for the same
reason: " [B] ecause petitioner failed to offer a valid reason whyhe should not be bound by his representation at trial that his
counsel's performance was adequate" and cited Anderson v. Warden,
222 Va. 511, 516 (1981) for that proposition.
No. 180265, at 1-4 (Va. Aug. 8, 2018).

Tekle v. Clarke,

As discussed below, the

Court discerns no unreasonable application of

the law or an

unreasonable determination of the facts in the Supreme Court of
Virginia's rejection of those claims.
(2) .

See 28 U.S.C. § 2254(d)(1)-

For Claims (9) , (11) , and (12) , the Supreme Court of Virginia

provided different rationales for their rejection of each claim
which will be discussed in conjunction with the specific claim.
C.

Pre-Trial Claims of Ineffective Assistance

In Claim (3), Tekle faults counsel for failing to argue that
"the

charges"

against him were unconstitutional because they

violated the Equal Protection Clause of the constitution.
No. 14-1, at 2, 4.)

(ECF

Similarly, in Claim (4), Tekle argues that

counsel was ineffective for advising him to plead guilty despite
the violation of his constitutional rights.
16

(Id. at 2, 5, 6-8.)

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 17 of 28 PagelD# 268

Tekle argues that,

"[t]he law says regardless of the crime, any

state's apparatus is prohibited to solicit a crime by Constitution
<s:— •

of the United States."

(Id.)

Tekle fails to explain, and the

Court fails to discern, how the charge against him violated the
Equal Protection Clause9, or any other constitutional right.

Thus,

counsel cannot be faulted for failing to advance this undeveloped
Tekle's vague, conclusory claims fails to state a claim

argument.
\

See Sanders v. United States, 373 U.S. 1, 19

for habeas relief.
)

t
t

(1963)

(finding denial of habeas action appropriate where it

"stated only bald legal conclusions with no supporting factual
allegations").

For this reason alone, Claims (3) and (4) may be

dismissed.
To the extent that Tekle faults counsel for failing to raise
the defense of entrapment pre-trial, counsel cannot be faulted for
failing

to raise

affirmative

this

defense

meritless

that

consists

defense.
of

"two

Entrapment
related

is

an

elements:

government inducement of the crime, and a lack of predisposition
on the part of the defendant to engage in the criminal conduct."

9 The Equal Protection Clause provides:
"No State
shall . . . deny to any person within its jurisdiction the equal
protection of the laws." U.S. Const, amend. XIV, § 1. To state
an equal protection claim, Tekle would be required to show that
£1) "that he has been treated differently from others with whom he
is similarly situated"; and, (2) that the differing treatment
resulted from intentional discrimination. Morrison v. Garraghty,
239 F. 3d 648, 654 (4th Cir. 2001).
Tekle fails to make this
showing.
17

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 18 of 28 PagelD# 269

Mathews v.

United States,

omitted).

Inducement

485 U.S.

58,

"involves

overreaching and conduct

63

(1988)

elements

of

sufficiently excessive

criminal design in the mind of

an otherwise

(citations
governmental

to implant

a

innocent party.

Solicitation, by contrast, is the provision of an opportunity to
commit a criminal act."
(4th Cir. 1993)

United States v. Daniel, 3 F.3d 775, 778

(internal citation omitted)

(citing Jacobson v.

United States, 503 U.S. 540, 548 (1992)).

"It is settled law

that the government may provide the opportunities or facilities
for the commission of an offense by one otherwise predisposed to
criminal activity."
(4th Cir. 1991)

United States v. Osborne, 935 F.2d 32, 37

(citations omitted).

According to the Proffer of Facts signed by Tekle, Detective
Troxell placed an advertisement on Craiglist that Tekle sought out
and then responded to voluntarily.

Subsequently, Tekle engaged in

the ensuing conversations with Detective Troxell over the course
of several days and continued to do so after learning that the
person he was communicating with was under the age of fifteen.
Clearly Tekle was predisposed to commit the crime of electronic
solicitation

of

a

minor.

See

Osborne,

935

F.2d

at

38

("[p]redisposition is found from the defendant's ready response to
the

inducement

advancing

an

offered").
entrapment

Thus,
defense

18

counsel
to

the

reasonable
crime

of

J%j9

eschewed

electronic

Case 3:18-cv-00694-REP-RCY Document 23 Piled 05/01/20 Page 19 of 28 PagelD# 270

Claims (3) and (4) lacks merit and will

solicitation of a minor.
be dismissed.

In Claim (7) , Tekle argues that counsel rendered ineffective
assistance when he advised Tekle to waive a preliminary hearing
because if he did not,
charges.

the Commonwealth would bring additional

(ECF No. 14-1, at 3.)

Counsel avers that he indeed,

"advised Mr. Tekle to waive his Preliminary Hearing after the
Assistant Commonwealth's Attorney stated he would indict [Tekle]
on multiple charges if he did not waive" his right to that hearing.
(ECF No.

21-1, at 1.)

Tekle fails to demonstrate that counsel's

advice to waive the preliminary hearing was unreasonable in light
of

the Commonwealth's ability and intent to bring additional

charges.

Tekle communicated with Detective Troxell over the course

of several days and suggested that he and the minor female engage
in a variety of
demonstrate

any

sexual

activity.

prejudice

from

Moreover,
counsel's

Tekle fails

advice.

to

Rather,

counsel's advice ensured that his client would face only one charge
as opposed to "additional multiple counts for the same offense."
(See id. at 1.)

Tekle fails to demonstrate any deficiency or

resulting prejudice and Claim (7) will be dismissed.
In

Claim

(10) ,

Tekle

contends

that

trial

counsel

was

ineffective for failing to consult with Tekle prior to continuing
his trial date.

(ECF No. 14-1, at 3-4.)

Tekle states, in sum:

"Petitioner contends he was denied the effective assistance of
19

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 20 of 28 PagelD# 271

counsel because counsel failed to consult with petitioner before
obtaining a continuation of petitioner's trial date.

And the court

rejected because petitioner failed a valid reason [sic] .

Yes,

without my knowledge, my counsel, the Commonwealth prosecutor, and
the Judge held [a] hearing on 27th Feb. 2017 . .
4.)10

(Id. at 3-

Tekle fails to identify with any specificity why counsel was

deficient or that he experienced any prejudice from counsel's
alleged failure to consult with him about a continuance.

Claim

(10) is conclusory and will be dismissed.

,-Y
'
~
v

1 v

' *

10 In Tekle's Response to the Second Motion to Dismiss, he
directs the Court to the Order dated March 30, 2017 (see ECF
No. 22, at 16), that indicates that on February 27, 2017, the
parties notified the Circuit Court that Tekle would be entering
into a guilty plea.
See Commonwealth v. Tekle, No. CR0003027200, at 2 (Va. Cir. Ct. Mar. 30, 2017). The February 27, 2017 order
to which Tekle refers is a Criminal Scheduling Order that scheduled
the guilty plea hearing for March 27, 2017, See Commonwealth v.
Tekle, No. CR00030272-00, at 1 (Va. Cir. Ct. Feb. 27, 2017). To
the extent that Tekle now attempts to argue that his attorney, the
prosecutor, and the judge made "a back door deal" on 27th February,
2017, and that once they decided that Tekle would plead guilty, he
was pressured by his own counsel into pleading guilty (ECF No. 22,
at 16), such a claim is not properly before the Court.
Tekle
cannot add new claims by a passing reference in his Response to
the Second Motion to Dismiss. See Snyder v. United States, 263 F.
App'x 778, 779-80 (11th Cir. 2008)
(refusing to consider
petitioner's statement in a reply brief as an attempt to amend his
S. 2255. motion to add a new claim); E.I. du Pont de Nemours & Co.
Zz. Kolon Indus., Inc., 847 F. Supp. 2d 843, 851 n.9 (E.D. Va.
2012); Equity in Athletics, Inc, v. Dep't of Educ., 504 F. Supp.
2d 88, Ill (W.D. Va. 2007) (citations omitted) (explaining that
"new legal theories must be added by way of amended pleadings, not
by arguments asserted in legal briefs") . Therefore, to the extent
that Tekle seeks to add any new claims in his Response, the new
claims will receive no further consideration in this action.
Moreover, any claim that he was coerced into pleading guilty is
refuted by his statements under oath at the plea hearing.
20

SSL)

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 21 of 28 PagelD# 272

Guilty Plea-Related Claims

D.

In a related serious of claims, Tekle faults counsel for
various

purported

deficiencies

surrounding

his

guilty

plea.

Tekle's claims are once again quite terse and conclusory, and
because of the lack of supporting facts, the Court has difficulty
determining exactly what Tekle intends to argue.
discussed

below

the

majority

of

Tekle's

Nevertheless, as
allegations

about

counsel's performance are ^foreclosed by Tekle's validly entered
plea agreement.

Tekle also fails to establish any deficiency of

counsel or that, but for any deficiency of counsel, a reasonable
defendant would have insisted on pleading not guilty and proceeding
to trial

Tekle received the mandatory minimum sentence of 5 years

after his guilty plea, but could have received up to 30 years if

V

he chose to proceed to trial.
In Claim (5), Tekle faults counsel for failing to correct the
proffer of facts that was offered by the prosecutor.
1, at 2, 5.)

(ECF No. 14-

Specifically, Tekle contends that "in the proffer of

the fact sheet, the prosecutor purposefully bended the truth and
BY. cp^sel failed to correct that simple fact" that he "never ever
arranged a meeting place and never went to the specific housing
unit the detective provided.

I refused to go and decided to leave

the public domain, however, he and his peers caught me up [sic] in
my vehicle."

(Id. at 2.)

The Proffer of Facts only provided that,

"the Defendant arranged to meet this young female at 75 Plaza
21

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 22 of 28 PagelD# 273

Street, Building J in the Town of Leesburg.

He arrived at the

appointed meeting time, and was confronted at that time by Det.
Troxell."

Proffer of Facts at 2.

Thus, the Proffer of Facts does

not suggest that Tekle himself selected the meeting place, just
if *'

that he agreed to meet Detective Troxell at the arranged place and
time.

Nor does the Proffer of Facts specifically state how

Detective Troxell and Tekle eventually came into contact with one
another.

Counsel cannot be faulted for failing to correct non­

existent errors in the Proffer of Facts, or for failing to insist
that it contain more detailed information.

Moreover, to the extent

that Tekle believes that counsel should have demanded that the
Proffer of Facts contain more specific information than it did,
Tekle cannot demonstrate any deficiency of counsel or resulting
prejudice.

Tekle agreed under oath that the Proffer of Facts was

true and that he was guilty of the facts stated therein.
current

protestations

that

certain

facts

foreclosed by his validly entered guilty plea.

were

Tekle's

omitted

is

Thus, Tekle fails

to demonstrate any deficiency of counsel or resulting prejudice.
Claim (5) will be dismissed.
Claims (6) and (11) pertain to counsel's advice regarding the
potential sentence Tekle could receive.
(6) in his state habeas petition.

Tekle did not raise Claim

In Claim (6) , Tekle contends

that counsel provided him with confusing advice regarding the
sentencing range and the sentencing guidelines.
22

(ECF No. 14-1, at

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 23 of 28 PagelD# 274

3.)

Tekle states that, counsel "presented a sentencing guideline

of around 1 year 9 months to 4 years and 10 months while as a
professional counsel knowing that [the] mandatory minimum [was]
five years.

He chose to confuse me."

marks omitted).)

(Id. at 3 (internal quotation

Relatedly, in Claim (11), Tekle argues that trial

counsel informed him that he would receive a sentencing of 30-45
years if Tekle did not plead guilty.

(Id. at 4.)

Tekle states

that, "a day before a plea acceptance [counsel] advised me to ask
apology- which I did.
me 30-45 years."

If I say anything else the Judge will give

(Id. at 3.)

Tekle's claims are terse and the

supporting facts provided by Tekle are not particularly clear,

In

rejecting Claim (11), the Supreme Court of Virginia explained as
follows:
[P]etitioner contends he was denied the effective
assistance of counsel because counsel told petitioner he
would receive a sentence of thirty to forty-five years
if he did not accept the plea offer.
The Court rejects this portion of claim (I) because
petitioner failed to offer a valid reason why he should
not be bound by his representations at trial that his
counsel's performance was adequate, that he understood
the range of punishment for the offense to which he pled
guilty was from five to thirty years' imprisonment, and
that his guilty plea was voluntary and there is not
evidence identified by petitioner that would support the
contrary conclusion that the plea was voluntary.
Tekle, No. 180265, at 2 (citation omitted).

The Court discerns no

unreasonable

or

application

of

the

law

an

unreasonable

determination of the facts in the Supreme Court of Virginia's
rejection of this claim.

See 28 U.S.C. § 2254(d)(l)-(2).
23

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 24 of 28 PagelD# 275

With respect Tekle's allegations about counsel's advice about
a potential sentence counsel avers as follows:
X do not believe that I ever told Mr. Tekle that the
Judge would give him a sentence of 30-45 years . . . . I11]
I know I would not have said anything like that since
the statutory range of punishment was 5-30 years and the
sentencing guidelines for Mr. Tekle, without the
mandatory-5-year minimum, I believed, was somewhere
around 1 year 9 months to 4 years and 10 months, Mr.
Tekle was made aware of the statutory range and mandatory
minimum from the beginning of his case.
(ECF No. 21-1, at 2.)

In his Plea Agreement, Tekle agreed that he

understood that he faced a sentence of between 5 and 30 years, and
at a minimum, he would receive 5 years of incarceration.
Agreement 2.

Plea

During the plea colloquy, the Circuit Court also

asked Tekle if he knew what the sentencing range was for his
conviction and Tekle himself supplied that he understood the range
to be between 5 and 30 years.

(Mar. 27, 2017 Tr. 13-14.)

Tekle

also stated that he understood that the mandatory minimum sentence
he could receive was 5 years.
if

counsel

had

provided

(Mar. 27, 2017 Tr. 15.)
Tekle

with

purportedly

Thus, even
confusing

information about his sentencing range, any error was cured during

11 Counsel's affidavit was proffered with the Motion to
Dismiss filed in the Supreme Court of Virginia,
The statement
quoted here was directed, in part, to a claim not before this
Court, that Tekle had created his own edited version of the Proffer
of Facts, and that counsel purportedly told Tekle that if he edited
the Proffer of Facts and presented it to the Court, that Tekle
would receive 30-45 years of incarceration. (ECF No. 21-1, at 2.)
Counsel's sworn statement remains relevant as the advice he
provided Tekle with regard to the estimated sentence he could
receive.
24

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 25 of 28 PagelD# 276

the plea hearing.
understood

that

Tekle's statements made under oath that he
the

mandatory minimum

was

5

years

and

the

sentencing range was from 5 years to 30 years foreclose his current
arguments.

Accordingly, Tekle demonstrates neither deficiency of

counsel nor resulting prejudice and Claims (6) and (11) will be
dismissed.
In Claim (8), Tekle suggests that counsel provided him with
insufficient information regarding the plea offer.
1, at 3-4.)

(ECF No. 14-

Tekle fails to identify what specific details counsel

omitted in his presentation of the plea offer to Tekle.

This is

entirely fatal to his claim.

at 19.

Moreover,

during

the

understood the plea,

plea

See Sanders,

hearing

Tekle

373 U.S.
indicated

had sufficient time to discuss

counsel, and that counsel had answered his questions.

that

he

it with

Tekle fails

to demonstrate any deficiency of counsel or resulting prejudice,
and accordingly, Claim (8) will be dismissed.
In Claim (9), Tekle contends that counsel "threatened" that
the Commonwealth would bring additional charges if Tekle did not
plead guilty.

(ECF No. 14-1, at 3-4.)

In rejecting this claim,

the Supreme Court of Virginia explained:
[P]etitioner contends he was denied the effective
assistance of counsel because counsel did not provide
petitioner
sufficient
information
regarding
the
Commonwealth's plea offer and additional charged the
Commonwealth "threatened" to bring if petitioner did not
accept the plea offer.

25

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 26 of 28 PagelD# 277

The Court rejects this portion of claim (I) because
petitioner failed to offer a valid reason why he should
not be bound by his representations at trial that his
counsel's performance was adequate, that no one,
including the police. Commonwealth's Attorney, or
petitioner's attorney,
had threatened or
forced
petitioner to plead guilty, and that his guilty plea was
voluntary and there is no evidence identified by
petitioner that would support the contrary conclusion
that the plea was involuntary.
Tekle, No. 180265, at 1-2 (citation omitted).

The Supreme Court

of Virginia's rejection of Tekle's claims was not unreasonable.
See 28 U.S.C. § 2254(d)(1)-(2).
Tekle agreed during the plea hearing that it was choice to
plead guilty and no one had threatened him or forced him to plead
guilty,
pleading

and his allegations that counsel threatened him into
guilty

are

belied

by

his

statements

under

oath.

Nevertheless, even if the Commonwealth indicated to counsel that
it would seek additional charges if Tekle did not plead guilty,
such action was constitutionally permissible.

See United States

v. Williams, 47 F.3d 658, 660-61 (4th Cir. 1995)

(explaining that

“[a]

indictment

prosecutor's

threats

to

seek

harsher

are

constitutionally legitimate even though the prosecutor's goal in
making those threats is to convince the defendant to waive his
right to plead not guilty") .
deficiency of counsel.

Thus, Tekle fails to demonstrate any

Tekle also fails to establish that but for

any alleged error of counsel, a reasonable defendant would have
insisted on pleading not guilty and proceeded to trial.

26

09?

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 27 of 28 PagelD# 278

In Claim (12), Tekle faults counsel for failing to remove
from the Plea Agreement a statement regarding Tekle's immigration
status.

(ECF No. 14-1, at 5.)

Tekle states:

"The truth is I do

have a USA naturalization certificate . . . and a passport . .
[T] he Plea Agreement I signed also false as I am [a] citizen of
[the]

United States,

facts."

(Id.)

the Plea Agreement does not reflect the

In rejecting this claim,

the Supreme Court of

Virginia explained:
[P]etitioner contends he was denied the effective
assistance of counsel because counsel failed to remove
a statement
from the plea agreement concerning
petitioner's immigration status.
The Court rejects this portion of claim (I) because
petitioner failed to offer a valid reason why he should
not be bound by his representations at trial that he
read and understood the plea agreement he signed, that
the statements in the plea agreement were true and
accurate, and that his counsel's performance was
adequate.
Tekle, No. 180265, at 1-2 (citation omitted).
no

unreasonable

application

of

the

law

The Court discerns
or

an

unreasonable

determination of the facts in the Supreme Court of Virginia's
rejection of this claim.
The

Plea

Agreement

See 28 U.S.C. § 2254 (d) (l)-(2) .
contained

the

following

provision

regarding the guilty plea on Tekle's immigration status:
I understand that, in the event I am not a citizen of
the United States, my pleading guilty to this charge, as
well as any subsequent disposition, conviction, or
sentence I may receive, may adversely affect my ability
to legally remain in the United States, or bar me from
becoming a United States citizen, I further understand
that. should I suffer any adverse consequences to my
27

Case 3:18-cv-00694-REP-RCY Document 23 Filed 05/01/20 Page 28 of 28 PagelD# 279

ability to remain in the United States legally, such
will not be a basis for me to withdraw my plea of guilty.
Plea Agreement % 18.

This provision appears to be a standard,

generic term found in many plea agreements.

As Tekle is a

naturalized citizen of the United States, this provision would
have no bearing on him.

Tekle fails to demonstrate, and the Court

fails to discern, how the inclusion of this provision in his Plea
Agreement had any effect on Tekle.

Therefore,

Tekle fails to

demonstrate any deficiency of counsel for failing to have the
provision removed or any resulting prejudice.

Accordingly, Claim

(12) lacks merit and will be dismissed.
VII. CONCLUSION
Respondent's Second Motion to Dismiss (ECF No. 19) will be
granted.

Tekle's claims are dismissed and the petition for a writ

of habeas corpus will be denied.

The action will be dismissed.

A

certificate of appealability will be denied.
The Clerk is directed to send copy of the Memorandum Opinion
to Tekle and counsel of record.

£5^

/s/
Robert E. Payne
Senior United States District Judge
Richmond, Virginia
Date:
(

28

VIRGINIA:
Jn the Supreme Qmvtt of Virginia held at the Supreme Court $ui£ding in the
City of [Richmond on Wednesday, the 8th day of Cluguot, 2018.

Daniel Tekle, No. 1573910,
against

Petitioner,

Record No. 180265

Harold W. Clarke, Director, Virginia Department of Corrections,

Respondent.

Upon a Petition for a Writ of Habeas Corpus

Upon consideration of the petition for a writ of habeas corpus filed February 26,2018,
the rule to show cause, the respondent’s motion to dismiss, and petitioner’s reply to the motion to
dismiss, the Court is of the opinion that the motion should be granted and the writ should not
issue.
Pursuant to a written plea agreement, petitioner pled guilty in the Circuit Court of
Loudoun County to electronic solicitation of a minor less than fifteen, being at least seven years
older, and was sentenced to eight years’ imprisonment with three years suspended. Petitioner did
not appeal. He now challenges the legality of his confinement pursuant to this conviction.
In a portion of claim (I), petitioner contends he was denied the effective assistance of
counsel because counsel advised petitioner to waive his preliminary hearing to avoid additional
charges.
The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representation at trial that his counsel’s performance was
adequate. Anderson v. Warden, 222 Va. 511, 516, 281 S.E.2d 885, 888 (1981).
In another portion of claim (I), petitioner contends he was denied the effective assistance
of counsel because counsel did not provide petitioner sufficient information regarding the
Commonwealth’s plea offer and additional charges the Commonwealth “threatened” to bring if
petitioner did not accept the plea offer.
The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representations at trial that his counsel’s performance was

adequate, that no one, including the police, Commonwealth’s Attorney, or petitioner’s attorney,
had threatened or forced petitioner to plead guilty, and that his guilty plea was voluntary and
there is no evidence identified by petitioner that would support the contrary conclusion that the
plea was involuntary. Id.
In another portion of claim (I), petitioner contends he was denied the effective assistance
of counsel because counsel failed to consult with petitioner before obtaining a continuance of
petitioner’s trial date.
The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representation at trial that his counsel’s performance was
adequate. Id.
In another portion of claim (I), petitioner contends he was denied the effective assistance
of counsel because counsel told petitioner it was not a “threat” when the Commonwealth said it
would bring additional charges if petitioner did not accept the plea offer.
The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representation at trial that his counsel’s performance was
adequate. Id.
In another portion of claim (I), petitioner contends he was denied the effective assistance
of counsel because counsel told petitioner he would receive a sentence of thirty to forty-five
years if he did not accept the plea offer.
The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representations at trial that his counsel’s performance was
adequate, that he understood the range of punishment for the offense to which he pled guilty was
from five to thirty years’ imprisonment, and that his guilty plea was voluntary and there is no
evidence identified by petitioner that would support the contrary conclusion that the plea was
involuntary. Id.
In another portion of claim (I), petitioner contends he was denied the effective assistance
of counsel because counsel lied to petitioner regarding how counsel would impeach the
investigating detective’s evidence.
The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representation at trial that his counsel’s performance was
2

adequate. Id.
In another portion of claim (I), petitioner contends he was denied the effective assistance
of counsel because counsel refused to submit petitioner’s amended proffer of facts to the trial
court to correct the Commonwealth’s proffer of facts. Petitioner alleges the Commonwealth’s
proffer of facts was inaccurate when compared to emails containing petitioner’s electronic
communications with the investigating detective, who was pretending to be a girl less than
fifteen years old.The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representation at trial that his counsel’s performance was
adequate. Id.
In another portion of claim (I), petitioner contends he was denied the effective assistance
of counsel because counsel told petitioner if he noted his disagreement with the
Commonwealth’s proffer of facts under his signature on the plea agreement and on the proffer of
facts, petitioner would receive a sentence of thirty to forty-five years. Petitioner contends
counsel advised petitioner to bring the proffer of facts issue and that the Commonwealth had
“threatened” petitioner to the probation officer’s attention during preparation of the presentence
investigation report.
The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representations at trial that his counsel’s performance was
adequate and that he understood the range of punishment for the offense to which he pled guilty
was from five to thirty years’ imprisonment. Id.
In another portion of claim (I), petitioner contends he was denied the effective assistance
of counsel because counsel failed to remove a statement from the plea agreement concerning
petitioner’s immigration status.
The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representations at trial that he read and understood the plea
agreement he signed, that all the statements in the plea agreement were true and accurate, and
that his counsel’s performance was adequate. Id.
In another portion of claim (I), petitioner contends he was denied the effective assistance
of counsel because counsel advised petitioner to plead guilty even though the investigating
3

&3

detective and various state entities had violated petitioner’s constitutional rights by entrapping
him.
The Court rejects this portion of claim (I) because petitioner failed to offer a valid reason
why he should not be bound by his representations at trial that his counsel’s performance was
adequate and that he was pleading guilty because he was, in fact, guilty. Id.
In claim (II), petitioner contends the Virginia Department of Corrections has incorrectly
calculated his good time release date. Petitioner fails to articulate how his release date has been
incorrectly calculated or when he believes he should be released.
The Court holds claim (II) is conclusional and, therefore, will not support the issuance of
a writ of habeas corpus. Penn v. Smyth, 188 Va. 367, 370-71, 49 S.E.2d 600, 601 (1948).
In claim (III), petitioner contends the investigating detective, in collaboration with the
police department, the magistrate, the Commonwealth’s Attorney, Loudoun County, and the
judicial system, violated petitioner’s constitutional rights when the investigating detective
pretended to be a girl under the age of fifteen during his electronic interactions with petitioner.
The Court holds claim (III) is barred because a voluntary and intelligent guilty plea
waives all non-jurisdictional defenses antecedent to a guilty plea. Peyton v. King, 210 Va. 194,
196-97, 169 S.E.2d 569, 571 (1969).
Accordingly, the petition is dismissed and the rule is discharged.
A Copy,
Teste:
Patricia L. Harrington, Clerk
By:

SSv<?
Deputy Clerk

4

L

SENTENCING ORDER
VIRGINIA: IN THE CIRCUIT COURT OF LOUDOUN COUNTY

federal information processing
STANDARDS CODE: 107

Hearing Date: 26* day of June, 2017
Judge: DOUGLAS L. FLEMING, JR.
COMMONWEALTH OF VIRGINIA
V.

: CRIMINAL NO. 30272
DANIEL TEKLE
DEFENDANT

On March 27,2017 the Defendant was found guilty ofthe following offense:
CASE
NUMBER

30272

OFFENSE DESCRIPTION AND
INDICATOR fF/Mt

OFFENSE
DATE

SECTION

Electronic Solicitation of a Minor
Less than Fifteen, being at Least
Seven Years Older (F)

10/28/2016

182-3743

VA. CODE

^ .^Pre-sentence report and various letters were received by this Court in the mann»

ssSSaiaaasss
pronounced.

srrssjLtsr.ss:r**

»—

a
any reason why judgment should not be

fit

Commonwealth ofVirgfnia v. Daniel Tekle
Criminal No. 30272
P&2

Hie Court SENTENCES the Defendant to:
Incarceration with the Virginia Department of Corrections for the term of: Eight (8)
Years with all but FIVE (5) YEARS SUSPENDED for ikefelony conviction of Electronic
Solicitation of a Minor less than Fifteen, being at Least Seven Years Older as contained in the
Indictment for a period of twelve (12) years.
The SUSPENSION ofthe above sentence is on the following terms and conditions:
Good Behavior. The Defendant shall keep the peace and be ofgeneral good behavior and violate
no laws ofthis or any other jurisdiction from this date and throughout the period ofany probation.
Snnervised Probation. The Defendant is placed on probation from his date of release from
confinement, under the supervision ofthe Probation and Parole Office ofthis Court for a period of
seven (7) years, followed by five (5) years ofunsupervised probation. The Defendant shall comply
with all ti»e rules and requirements set by the Probation and Parole Officer. Probation shall include
substance abuse counseling and/or testing as prescribed by the Probation and Parole Officer.
Drug Free. The Defendant shall remain drug free and in connection therewith shall submit to such
random screens as may be requested by his Probation and Parole Officer.
Substance Abuse. The Defendant shall complete any substance abuse screening, assessment,
testing and treatment as directed by the Probation and Parole Officer. The Defendant may be
subject to payment of any fees associated with substance abuse treatment or intervention as
required by the treatment or intervention program on an ability to pay basis.
Sex Offender Registration. The Defendant having been convicted by this Court of Electronic
Solicitation of a Minor less than Fifteen, being at Least Seven Years Older (F), a violation of
§18.2-374.3 ofthe Code ofVirginia, which is an offense for which Registration is required under
Va. Code §9.1-902, foe Defendant is remanded to foe custody offoe SheriffofLoudoun County for
the purpose of obtaining the Defendant’s fingerprints and photographs of the type and land
specified by the Virginia State Police for inclusion into the Sex Offender and Crimes Against
Minors Registry established and maintained pursuant to Va. Code §9.1-900 through 922 (Sex
Offender and Crimes Against Minors Registry Act) foe Defendant shall also provide to foe Sheriff
of Loudoun County all information required by the Virginia State Police for inclusion in foe
Registry. The SheriffofLoudoun County shall forward all foe necessary Registration information
2

Commonwealth ofVirginia v. Daniel Tekle
Criminal No. 30272
Pg.3

to the Virginia State Police as required by law. The Defendant is required to register and re-register
as required by the Sex Offender and Crimes Against Minors Registry Act
Credit For Time Served. The Defendant shall be given credit for time spent in confinement
while awaiting a hearing in this case pursuant to Section §53.1-187 ofthe Code ofVirginia.
It is ORDERED that the Defendant is to pay the costs ofthese proceedings, plus any Court
Appointed Attorney foes that may be assessed, to the Clerk of the Court
The Defendant’s DNA was previously Ordered and taken on March 27,2017.
And the Defendant is remanded to the custody of a Deputy Sheriff
The Clerk is directed to forward a copy of this Order, forthwith, to the Office of the
Commonwealth’s Attorney, to Charles J. Swedish, to the Adult Probation and Parole Office, and to
the Loudoun County Adult Detention Center.

ft.

r
177*7*01ANT

ENTER: *
DOUGLAS L. FLEMING JIU JUDG

'A

rnnzmFTCATION:

Alias: unknown
SSN: 212-73-7267

DOB: 07/04/1968

Sex: Male

SENTENCING SUMMARY:
TOTAL SENTENCE IMPOSED: Eight (8) Years
TOTAL SENTENCE SUSPENDED: Three (3) Years
TOTAL SENTENCE TO SERVE: FIVE (5) YEARS

P3

3

Additional material
from this filing is
available in the
Clerk's Office.

